<html>
<title> - UNITED STATES-EUROPEAN RELATIONS: THE VIEW FROM THE EUROPEAN PARLIAMENT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
UNITED STATES-EUROPEAN RELATIONS: THE VIEW FROM THE EUROPEAN PARLIAMENT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                       Wednesday, April 12, 2000

                               __________

                           Serial No. 106-135

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
66-307 CC                   WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                  Nicolle A. Sestric, Staff Associate


UNITED STATES-EUROPEAN RELATIONS: THE VIEW FROM THE EUROPEAN PARLIAMENT

                              ----------                              


                       WEDNESDAY, APRIL 12, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. I am delighted to call this hearing of the 
Committee on International Relations to order.
    Today, our Committee on International Relations meets to 
receive, for the very first time, statements by means of 
Digital Video Conference in our newly renovated and equipped 
hearing room. Our topic today is United States-European 
Relations: The View from the European Parliament.
    As I wrote our witnesses, the closeness of the relations 
between the House and the EP makes it quite natural that we 
would call on our friends in Europe to help us inaugurate our 
new facility.
    We were not certain until quite recently just when this 
facility would be ready. They have been working on it for 
several months.
    We are very fortunate to have good friends who are willing 
to appear and discuss their views on such relatively short 
notice. Mel, we thank you and Elmar and our other good 
colleagues for joining us today.
    We are very happy to have testimony from several eminent 
members of the European Parliament: Mel Read, Chair of the 
Delegation for Relations with the United States; Elmar Brok, 
Chairman of the Committee on Foreign Affairs, Carlos 
Westendorp, Chairman of the Committee on Industry, External 
Trade, Research and Energy, and Karla Peijs, Vice Chairman of 
the Delegation for Relations with the United States. I will 
return to introduce you all as we call on you.
    I also want to emphasize that this hearing is not meant in 
any way to supplant the work of the Translatlantic Legislator' 
Dialogue. That work, of course, will continue under the agreed-
upon procedures on the basis of mutual decisions.
    As we discussed in Brussels, I do hope that we will be able 
to have a continuing series of discussions by video conference 
involving expert Members on each side to get into the issues in 
depth. We will continue to have our formal meetings of the full 
delegations, with the next one to occur in this room in June.
    Finally, our staffs stand ready to help Members of the 
European Parliament and the House to obtain information about 
actions in the other body and to put Members in contact with 
one another.
    Every 6 months our Committee invites the Ambassador of the 
Member State of the EU presiding over the Council, along with 
the Head of the Commission's Delegation, to meet with our 
Members. Yesterday, we heard from Ambassador Rocha Paris and 
Ambassador Burghardt, and we had an excellent discussion with 
them.
    Now, colleagues, instead of hearing Ambassadors of 
administrations, we have the opportunity to meet via video 
conference with the directly elected representatives of the 
people of Europe. Our topic today is open ended, and 
deliberately so. We want to hear your views and give you time 
to develop them and then have a dialogue.
    In our view, these discussions are necessary because while 
the transatlantic relationship is good, it is going through one 
of its most difficult periods. Trade issues--bananas, beef, 
biotech, not to mention hushkits, farm policies, and so on--
trouble lawmakers and the public on both sides. On the 
political side, there continue to be differences between our 
Administrations and perhaps between majorities in our two 
bodies.
    We were disappointed to have learned that European 
governments would not be able to agree to cosponsor a U.S. 
resolution on human rights in China at the United Nations Human 
Rights Commission meetings in Geneva. The need for unity may 
lead to a ``least common denominator'' approach to policy that 
you may come to regret, and we already regret--at least in this 
instance.
    Just this morning at breakfast I had the opportunity of 
meeting with the Ambassador of the People's Republic of China, 
and we mentioned how regretful we were that they are addressing 
the situation in Geneva in a very negative manner. We want to 
show our concern over human rights throughout the world, and 
particularly in the People's Republic of China.
    We were also disappointed to learn about some of the very 
open concerns expressed by non-EU NATO partners over the way 
the ESDP is being developed. I know that one of our speakers 
has a special expertise on this issue, and we will be very much 
interested in having another good discussion on how ESDP is 
developing.
    In our discussions yesterday with representatives of the 
European administrations we heard how important the ongoing 
Intergovernmental Conference (IGC) was from their perspective. 
We have heard discussed with you how you perceive a need to 
adapt European institutional arrangements to a larger and 
perhaps deeper EU.
    I know that Mr. Brok is one of the EP's representatives to 
the IGC, Elmar, and I know that Mrs. Read has been especially 
keen to explain to our American colleagues the current powers 
of the EP. So, I hope that we will get into these issues for 
the sake of the wider American audience we now have.
    At this point, I would ask Mr. Gejdenson, our Ranking 
Minority Member, if he would have some opening comments, and I 
would like to introduce our two panelists after that. Mr. 
Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. It is a pleasure 
initiating this oceanic dialogue, and it is great to see our 
friends from Europe and say hello, and I look forward to having 
substantive discussions on a regular basis. We all take 
occasional trips back and forth, but I think this will actually 
help us in that relationship, and I welcome this opportunity.
    Chairman Gilman. Thank you, Mr. Gejdenson. It is good to 
have Mr. Gejdenson part of our exchange with our European 
colleagues.
    Now I would like to call on our Vice Chairman, Mr. 
Bereuter, the gentleman from Nebraska.
    Mr. Bereuter. Good morning, colleagues, nice to see you 
even at a distance, Mr. Westendorp, Elmar Brok, (who is a long-
time friend) and Mrs. Read. I think it is particularly 
important that we initiate even closer contacts between the 
European Parliament and the U.S. Congress.
    I just returned from Brussels this past weekend where we 
were having the Standing Committee of the NATO Parliamentary 
Assembly and, Elmar, you might like to know that we spent quite 
a bit of time talking about your proposal in conjunction with 
NATO Interpartiamentary Exchange President Javier Ruperez 
(Spain), to tighten the relationship and dialogue between the 
European Parliament and the NATO Parliamentary Assembly.
    It is very difficult to have actual reciprocity between the 
two bodies in a very specific sense, but I think your proposal 
was generally very well received. As a matter of fact, I 
suggested a few additional ways that we think we could provide 
you with more information about the military capacity of the 
NATO Parliamentary Assembly.
    We know that individually you have a substantial knowledge 
about that area, but since the European Union is proposing that 
the ESBI, now SBP, will be within the European Union, it seems 
that our understanding should be particularly well developed in 
that area.
    I suggested that Members of the European Parliament should 
also have several slots on our annual military tour, as well as 
one on our defense subcommittee's annual visit to the United 
States where they visit with people at the Pentagon, the other 
Executive agencies related to defense, and then some of our 
major installations.
    In addition to having you there as associate members for 
the most part in our future meetings, particularly the spring 
and the fall major meetings of the Parliamentary Assembly, this 
might help build a better bridge of understanding.
    As I was looking at newspapers in Europe this past weekend, 
I saw, for example, in the Herald Tribune, an article about 
growing anti-Americanism in Europe, especially in France--no 
surprise to us--and also concern among the six European NATO 
members who are not members of the European Union. Of course, 
developing the linkages between the EU, including the European 
Parliament, and the NATO organization, including the 
Parliamentary Assembly, I think is crucial if, in fact, the 
ESDP is to be developed fully as a European pillar.
    I might also say one other thing. My biggest fear of all is 
that growing trade antagonisms between the European Union and 
Canada and the United States on the other hand may spill over 
and effect the ability of the West through NATO to defend its 
interests and to take action out of area to deal with crises 
that may occur near the NATO 19.
    I also am incredibly--I don't know if I should use the word 
``impressed''--but aware of the fact that the European Union 
has moved so far into the area of effecting the lives of the 
member nations' population. I think that is very positive in 
terms of building a strong Europe, and we are, I think as you 
know, bipartisanly supportive of the growth of European 
institutions as epitomized by the European Union and the 
European Parliament. But I also see it going on a very 
divergent track from what is happening in the United States. 
There is a greater tolerance for regulation on a multi-national 
sense in Europe today than there would be on national 
regulation of American citizens.
    We are deregulating. We are reducing the role of government 
in the lives of our citizens. I am impressed with the 20,000 to 
30,000 people who work in your European Union bureaucracy and 
the willingness of Europeans to dedicate more and more of those 
decisions to the European Union. I am not critical--that is a 
European decision--but I do think now we do have divergence in 
our approach to dealing with constituents. We therefore need to 
build understanding between the European Parliament and the 
Congress of the United States to avoid deep frictions that 
could divide our peoples.
    Thank you very much for being such a willing group of 
interlocutors on so many issues, and we look forward to this 
dialogue today. Thank you. Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Doug Bereuter. We are pleased 
to be joined by another one of our Subcommittee Chairmen, Chris 
Smith, who is Chairman of our Subcommittee on International 
Operations and Human Rights. Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. Regrettably, 
I have a press conference over the AFL-CIO on the WTO and MFN. 
But let me just say this is a very important hearing. I am 
certainly glad that you are conducting it. You and Mr. 
Bereuter, I think, are to be commended for your leadership on 
European issues throughout the many years, and I look forward 
to looking at the testimony at the conclusion of the day. I 
yield back the balance.
    Chairman Gilman. I know you have a prior commitment, but I 
hope you can return shortly.
    Let me note that there is a Democratic Conference right 
now, and so our Minority Members will be joining us along the 
way.
    Our first speaker is Mrs. Mel Read. As I noted before, she 
is Chairwoman of the EP's Delegation for Relations with the 
U.S. Mel is a leader of the Socialist Group in Parliament, and 
represents a constituency in Nottingham and Leicestershire, 
northwest England. I informed my colleagues in January that you 
are bound to fail if you try to rattle Mrs. Read because she is 
a beekeeper by avocation. She chaired our last meetings and did 
a great job at keeping us on track and on schedule. I very much 
appreciate Mel's willingness to share her views with us. 
Chairwoman Read, please proceed, and if you have a statement to 
submit for the record or want to e-mail it on to us, we will be 
pleased to make it part of the record. Please proceed.
    Mrs. Read. Mr. Gilman, thank you very much, indeed. Good 
afternoon to all of your colleagues there in Washington. We 
bring you greetings from the U.S. Delegation here in the 
Parliament and, of course, from the Parliament itself, and we 
are in Strasbourg, the home of the European Parliament.
    My remarks will be fairly brief then, they are by way of 
introduction to my two prestigious colleagues, but I did want 
to say a few words very briefly about the Trans-Atlantic 
Legislature's dialogue.
    As you know, both you and I and, indeed, our two 
Delegations, set great store by this dialogue, and I think your 
introduction, particularly over the trade areas, are going to 
form the basis of our discussion hopefully in May and June.
    We are on course here with the practical and political 
arrangements, and I anticipate that we will have two TLD video 
conference link dialogues in May, and I very much hope another 
one in June, although we do understand that elections in the 
U.S.A. may make this more difficult.
    Our Delegation meets tomorrow, and we will be finalizing 
our own suggestions about our joint Delegation in Washington, 
in June, where we will have the opportunity, I think, to review 
how well the TLD has gone in the meantime.
    But then, if I may, I would like to introduce you properly 
to my two colleagues here, both of whom you have mentioned. 
First is Mr. Elmar Brok, who I know is a long-time personal 
friend of yours and, of course, very well known to many of your 
colleagues. Mr. Brok is Chair of the Foreign Affairs Committee 
here in the European Parliament and, if I may, I will ask him 
to make a contribution, his own comments for the record. Mr. 
Brok, if you would like to contribute.
    Mr. Brok. Thank you. Thank you, Ben, for your questions and 
also what Mr. Bereuter has said about the concerns of our six 
non-European Union NATO countries. I think it is an important 
question which we have to take seriously.
    When we develop our European Security Defense Policy, we 
must ensure that we do not create divisions within NATO because 
we believe that NATO will be for a very long time the body for 
the collective defense of Europe, and there is no dispute about 
it at all. What we want to develop is not to weaken this role 
of NATO, but to strengthen European possibilities and our way 
of burdensharing.
    As you know, we are on the stage of developing the European 
Union in this Intergovernmental Conference in order to prepare 
the European Union for enlargement, and the enlargement process 
is one of our most important cases to broaden the basis for 
peace, freedom and stability in Europe. The more countries we 
are able to take into the European Union, the broader the space 
for stability in Europe and that is in our common interest.
     This is our main purpose of security policy, but security 
policy is not the only reason for enlargement, but an important 
part of it. The more countries who join us in this process--and 
I think the possibility that the first countries, especially 
the three central European NATO countries--Hungary, Czech 
Republic, and Poland--has a chance to join around 2003 the 
European Union, the NATO nations are in a good way.
    This Intergovernmental Conference which will be finished in 
December of this year has the main purpose to prepare the Union 
for a bigger membership. Our decisionmaking procedures are not 
good enough to deal with more than 15 member countries, we want 
to prepare for that with the relationship of the institutions, 
the decisionmaking process, the more qualified majority voting 
especially is one of the main instruments to achieve this goal.
    To raise one question more, what we are to do with our 
defense policy. We have learned so much about the situation in 
former Yugoslavia. The Europeans were absolutely unable to 
develop a policy of prevention that such regional wars were not 
possible again. Only thanks to the United States it was 
possible that peace negotiations had a chance and that they 
have a chance to have more stability in this region. Mr. 
Westendorp has personal experience in this task, and his 
responsibilities he had in that region before he came to the 
European Parliament.
    We believe that our meetings in civil crisis management, we 
have do a lot of foreign aid to that region, to Europe, to the 
Mediterranean, that we have a certain ability to combine our 
capacities in civil and military crisis management in order to 
do a job that regional conventional wars will not come possible 
again.
    This is not against NATO, it is with NATO, complementary to 
NATO, and if NATO wants to take over this task, we would be 
perfectly happy if they would do it, but we cannot imagine that 
in every local case the United States would do the job for us 
Europeans, and for this moment when NATO wants them to do that, 
we must have our capacities and our common interests to look 
for more stability in Europe, and therefore we wanted to revise 
it and bring it together. What Doug has mentioned about our 
joint approach, the European Parliament and NATO Assembly, it 
is specially to involve non-EU countries along with member 
countries in our task.
    When we have in the future our quarterly sessions of Human 
Relations Committee of European Parliament with Commissioner 
Patten and High Representative Solana, we are happy to invite 
NATO--parliamentarians from NATO countries to these hearings--
the Poles, the Turks, Members of United States Congress--to 
take part in these hearings in order to get the information, to 
ask the proper questions in order to have a possibility that on 
the level of Parliamentarians to keep our unity going in the 
same direction. Therefore, very much the vast majority of this 
European Parliament to go along such lines, to do it together, 
and if we can play a role in the NATO Assembly, then it is on 
the other side the same way to keep us together, and we will 
force also our Administrations to go the same line in order to 
avoid any misinterpretation of our approach and our common 
goals. Thank you.
    Chairman Gilman. Thank you.
    Mrs. Read. Thank you, Mr. Brok. I was going to say, Ben, 
that it was, I think, noteworthy that the Delegation that came 
to Brussels from Congress in January were able to meet both 
Commissioner Patten and also the High Representative, Mr. 
Solana, and I think both meetings were mutually beneficial.
    Chairman Gilman. Mel, they were very helpful to us, and we 
welcome that opportunity to have first hand expressions of 
their views with regard to the direction in which they were 
going on the new defense posture.
    Mel, would you like to proceed?
    Mrs. Read. Yes, thank you. Thank you very much. Can I 
introduce to colleagues now, Mr. Carlos Westendorp, who is the 
Chair of the Industry and Trade Committee, also a Member of the 
U.S. Delegation, as is Mr. Brok. Mr. Westendorp.
    Chairman Gilman. Welcome.
    Mr. Westendorp. Hello, colleagues and dear friends. I think 
are using for the first time a very good device which is going 
to allow us to deal with many issues that we dealt with in our 
last meeting in Brussels but, unfortunately, we have no time to 
deepen the analysis of each item. So, I think with this device 
we can discuss and on many occasions prevent, diffuse possible 
contentious issues between United States and Europe.
    We are together closely monitoring the evolution of the WTO 
conversations in Geneva. We are also dealing with the so-called 
``leftovers'' of Marrakesch, but at the same time we have to 
prepare the new round whenever the moment is right. We are, in 
the Parliament, not going to have elections, but we understand 
that you are going to have elections, and this is a more 
difficult situation perhaps to come to definitive arrangements. 
But, anyhow, we have taken very important initiatives by 
writing a joint letter to our Administrations, respective 
Administrations, in order to provide us with data about 
agriculture in order to see the facts before we start 
quarreling about how the situation in our respective 
agricultures are. We may discover very interesting things about 
that.
    We are following very closely your negotiations with China 
and our negotiator is doing that. We believe that the tension 
between the continent and Taiwan must be diffused. You are 
doing a lot, but I believe that an agreement with China and the 
WTO is a step in the right direction. But at the same time, I 
share with you your concerns about the situation of human 
rights in China, so this is something that the European 
Parliament feels very strongly about, and we are going to see 
how our other bodies are behaving in the United Nations bodies 
because what you have told us, it goes, I think, in the 
opposite direction of what the European Parliament would like.
    As far as the anti-Americanism you are feeling, I don't 
think you should be very much concerned about that because 
sometimes it is an expression of the defense of cultural 
identities which is something that, in my opinion, is a 
nonstarter because we are dressing like the Americans. We are 
eating the same as the Americans. We are speaking all English. 
So you need not worry about that.
    But I shall tell you that in the last Lisbon Summit, what 
we have done is just to constitute what we call Europe.com, 
that is to say we are following your direction, your success in 
the new society, the new information society, ecommerce, et 
cetera. So, you see, you are still our example to follow on 
many issues. Thank you.
     Mrs. Read. Thank you very much, Carlos. Thank you.
    I am looking to you, Ben. Those are our two contributions.
    Chairman Gilman. We thank you for the contributions, and we 
are off to a good start, and we welcome Congressman Brad 
Sherman, who has joined us, a Representative from California, 
who would like to make a few opening remarks. Mr. Sherman.
    Mr. Sherman. Thank you. I thank the European 
Parliamentarians who have joined us, at least through virtual 
reality.
    In your dealings with the American State Department, you 
will deal with people who want to get along, see things from, I 
think, a European view, and this may give you the wrong 
impression of where the United States is heading to the extent 
Americans think about these issues at all.
    Our State Department doesn't worry that much about 
burdensharing, but our people will. Our State Department 
doesn't care very much about the trade deficit, which is the 
largest in the history of mammalian life, but our people will, 
and they are here to demonstrate at the Capitol today, inspired 
by those concerns.
    So, one particular issue I want to mention in my opening 
remarks is of great concern to my own constituency in 
California, and that is the pressure that European governments 
are putting on the World Bank to cause it to make loans to 
Iran. To think that a country would get concessionary loans of 
your money and ours at a time when they are about to begin the 
trial of 13 Jews imprisoned in Shiraz solely because of their 
religion, is a matter that we should take very seriously. I 
realize our own Government has already made premature overtures 
to Iran, but at least we have not given them aid or 
concessionary loans or investments. For Europe to pressure The 
World Bank into taking money, a tiny part of which comes from 
my constituency, and loan it to Iran just as these trials, 
phony trials, mock trials, are about to begin is a major 
irritant and a future irritant in U.S.-European relations.
    Chairman Gilman. Thank you, Mr. Sherman.
    Let me address our opening question, should the European 
Union States be free to announce their support of the U.S. 
resolution on China at the U.N. Human Rights Commission at 
Geneva, should they so choose?
    I understand there has been an opportunity, and a direction 
pretty much in EU, to have a combined effort rather than 
individual states. Are the European Union nations being asked 
not to announce their support and not to lobby other countries?
    Are you familiar with the situation relative to the Geneva 
meeting?
    Mrs. Read. Do you want us to respond to that, Ben?
    Chairman Gilman. Yes, we would welcome it, Mel.
    Mrs. Read. Elmar, do you want to start?
    Mr. Brok. Yes. Thank you very much. First of all, I would 
like to answer about the 13 Jewish prisoners. The Iranian 
Embassy sent us today information material that they were ready 
to give every one of them a lawyer, which is of course 
progress, but I believe that so long as someone, because of his 
religious background, is discriminated in a country in such a 
way and just because of that is in a situation that he might be 
punished by death penalty, we have to take actions for that. I 
can assure you that we have given this material to our Human 
Rights Committee to take action on that, and we would like to 
work with you together to have better situation for these 
people in Iran. At the European Parliament, for example, 
stopped a financial project to Syria until the Jewish community 
could leave Syria.
    We are ready to defend Jewish interests in Iran with you 
together, and I think perhaps this discussion might come to a 
joint approach to ask the Iran authorities to stop this.
    Chairman Gilman. Thank you, Elmar, that is good news. Mr. 
Sherman wanted to make an intervention.
    Mr. Sherman. I do want to thank you for your comments, but 
I think that money speaks far more loudly than words, 
resolutions, and comments. I, too, am gratified that those in 
Shiraz will be given lawyers, but if memory serves me 
correctly, in the Stalin ``show'' trials, the defendants were 
given lawyers briefly before their execution. I do not think 
that the death penalty will result from what is going on in 
Shiraz, but even long sentences for holding a particular 
religion then to occur and then to be rewarded with money from 
The World Bank would be a travesty. But I do thank you for your 
efforts, I know you are sincerely concerned. I just want to 
take that concern from a rhetorical level to an economic level.
    Chairman Gilman. Thank you, Mr. Sherman.
    Let me address a further question. How do you think the 
changes that the IGC contemplates will change the way the EU 
relates to the world and to our own Nation?
    Mr. Brok. The Intergovernmental Conference will not change 
the situation until perhaps the possibility that we can be more 
effective by majority voting in the Council to prepare for 
negotiations. In trade matters, for example, to put questions 
like to majority voting in order to give a mandate to the 
Commission for negotiations, that would make it much easier, 
for example, to come to compromise at the end of the day 
because the room for maneuvering in negotiations will become 
bigger. I think we will also perhaps discuss the question of 
voting on foreign policy which isn't our system now, but in a 
general way, the Intergovernmental Conference is just an 
internal affair of a balance between institutions, how many 
commissioners should be there, how will be the weighting of 
votes from member countries and the council, how many seat 
every country should have in the European Parliament, the 
increase of majority voting and such questions so that it will 
be of no direct impact to your country. The only impact will be 
that first of all European Union is much more able to come to 
decisions and, because of that, we might be able to get more 
members in the European Union.
    Chairman Gilman. Thank you, Elmar. Now, Elmar and Carlos, 
our GAO will soon be publishing a report on Bosnia. It 
concludes that the effort to implement the civilian 
requirements of the Dayton Agreement will fail unless we can 
address the endemic crime and corruption problems that affects 
every aspect of Bosnia's politics and economy. Do you agree 
with that conclusion?
    Mrs. Read. Carlos?
    Mr. Brok. Ben, I have to leave now because my group has a 
special session about the Intergovernmental Conference in order 
to make sure we are ready to go tomorrow in Plenary. I think my 
group Chairman will be there.
    Chairman Gilman. Elmar, we welcome your presence. You are 
always rushing off to another meeting. We know how many 
responsibilities you have, but it is good talking to the 
Chairman of Foreign Affairs in the European Parliament.
    Mrs. Read. Mr. Westendorp will answer, Ben, on Bosnia, if 
that is all right.
    Chairman Gilman. Thank you, Mel. Carlos.
    Mr. Westendorp. Yes, Ben. I think the situation in Bosnia 
is moving, but very, very slowly, much more slowly than the 
speed that the international Community would like to give to 
the whole process in order to be able to pull out.
    So, there is a kind of disconnection to this slowness of 
the process in Bosnia, and the speed, the impatient situation 
of the international community. We have to come to a conclusion 
that Bosnia needs us for quite a while, but the question is 
whether they are capable of doing that by themselves. I don't 
think they are. They need us in order to take decisions. The 
concept of ownership, it is a very nice concept, but they 
totally realize that to fight against corruption, to stand up 
with privatization, to have a sound financial system, they need 
the push of the international community. So, I think we have to 
stay there and push them.
    Chairman Gilman. Thank you, Carlos. I will now turn to our 
Vice Chairman, Doug Bereuter.
    Mr. Bereuter. Thank you, Chairman Gilman. I want to ask a 
question and give you some information you might find 
interesting on the Balkans. Before I do that, however, Mr. 
Westendorp, I thought I would focus on Pascal Lamy's recent 
negotiations for the European Union with regard to China's 
accession to the WTO.
    We were disappointed, as perhaps you were, that there was 
no successful conclusion to those accession talks. It could 
well effect--although I hope it won't--the United States 
Congress' consideration of Permanent Normal Trade Relations 
(PNTR) with China which is one of the conditions, as far as the 
Chinese are concerned, to their accession agreement with the 
United States. Of course, you, your country, and every other 
member of the WTO gain from the accession agreement that we 
have put in place with the People's Republic of China (PRC).
    There is a common perception in the United States, found on 
editorial pages and elsewhere, that your trade commissioner may 
have been under some pressure to go further than the Americans 
were able to go with China WTO accession--that is, to have 
additional tariff or other kind of market opening concessions 
from the Chinese.
    I wonder if you would address the view that it was 
diplomatically--I will say politically--important for your 
commissioner to go further than the United States had taken the 
PRC. Then, second, and really more importantly to us, what are 
your thoughts about how soon the European Union can complete 
successfully its succession talks with the PRC?
    Mr. Westendorp. Yes. Exactly this morning, a few hours ago, 
Commissioner Lamy has been informing a group of 
Parliamentarians in the European Parliament about his 
conversations with China--his negotiations with China.
    He doesn't hide from us the difficulties for this 
agreement, but he told us several things which are very 
important. First of all, that we are in a very close--he is in 
very close contact with your negotiators, and both sides know 
very well each other's positions, so there is, let us say, 
common views on many issues. Of course, there are differences 
of interest in the United States and in Europe about different 
items, but it doesn't prevent--this is the second conclusion--
that the negotiations are being very difficult, but they are 
ongoing satisfactorily. What Lamy has done is to come here to 
see how the Member States feel about these conversations, the 
results of these conversations.
    He didn't tell us that he is under any pressure from any 
Member State about going further than the United States. What 
we think in the European Union in general, it is that an 
agreement with China is a very important thing because to have 
China in is much better than to have China out. Of course, for 
China to submit to the disciplines of the WTO would be a major 
step in the right direction--that is to say, to have China as a 
reliable partner.
    So, we are not just looking at what the Congress is going 
to do, but we are just negotiating in good faith and with the 
intention of finishing these negotiations when they are right.
    Mrs. Read. Thank you, Carlos.
    Mr. Bereuter. Thank you very much.
    Mr. Chairman, can I move on to the Balkans, or do you want 
to go to our colleague, Mr. Sherman, first?
    Chairman Gilman. Go ahead.
    Mr. Bereuter. I would tell you a little bit of what has 
happened here lately with respect to American participation in 
the Balkans, in Bosnia, and, particularly, in Kosovo.
    I led a delegation of about 12 members of the House 
Delegation to the NATO Parliamentary Assembly to Kosovo in mid-
February, and, frankly, I was very concerned about the level of 
ethnic cleansing, the violence that still is taking place and 
the lack of any kind of judicial system. Civil government in 
general is just absent, and there is tremendous pressure on 
ethnic minorities--the Serbs in Kosovo and right across the 
border, the Albanian ethnics in that part of Serbia.
    Shortly thereafter, approximately 10 days ago, the House of 
Representatives, as a part of debate on a supplemental 
appropriation bill, had a burdensharing amendment offered by a 
bipartisan group of Members, including the Chairman of the 
House Budget Committee. It was based upon similar legislation 
proposed by Senator John Warner of Virginia.
    Basically it attempted to measure how the European 
countries, including the EU countries, were doing in meeting 
their commitments for civil, military, police assistance and 
for efforts generally within Kosovo. Different percentages for 
each of those several categories would serve as the 
miasarements.
    The concern that exists in this country--rightly or 
wrongly--that the Europeans are not meeting their commitments 
particularly with regard to the International Police Force to 
Kosovo, thereby causing additional burdens on the military 
forces from all of our countries that are participating in 
Kosovo.
    That amendment received approximately 45 percent of the 
vote in the House. It did not pass, but it had strong 
bipartisan commitment. While I did not support it, I could 
understand that, in fact, our colleagues and the American 
people want to know, first, that there is equitable 
burdensharing on addressing the reconstruction of a civil 
society in Kosovo; and, second, that this is not an unlimited, 
very lengthy process in which we are involved in Kosovo, at 
least in terms of its impact on our budget.
    Chairman Gilman, along with Mr. Smith whom you heard, 
myself, and many other members, have introduced legislation in 
the House which does have a burdensharing provision in it, but 
it is not a flat dollar amount. It is simply saying that we 
will pay 15 percent of the total cost as compared to the other 
NATO countries and those in the EU that are not members of 
NATO. Perhaps we will raise that to 18 percent which is a 
figure that the Administration has often cited.
    Ours, unlike the Kasich amendment I referred to earlier, 
does not require a troop pullout. It just requires an annual 
balancing of financial commitments over the next 5 years.
    In addition to that, however, this legislation would 
authorize substantial additional assistance, particularly to 
Montenegro and to Macedonia (the Republic of Macedonia, if you 
prefer) including a major education effort and security effort 
in Macedonia, since we think so much of the cost or burdens of 
the conflict in Yugoslavia, in Serbia, and especially in 
Kosovo, have fallen on Macedonia.
    I did want you to be aware of that legislation. It is 
possible we might even mark it up in Full Committee this week. 
We are working with the Ranking Democrat, Sam Gejdenson, to see 
if, in fact, we could have bipartisan support on it. The 
number, for your information, is H.R. 4053.
    I did want to bring you up to date on my concern that 
things are going very badly in Kosovo, and I also wanted you to 
know about the emerging and, in fact, intensifying debate in 
the United States about burdensharing in Bosnia and now in 
Kosovo.
    Thank you for listening, and I would love to have any 
response you would like to direct my way.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mel, I see we are joined by another panelist. Welcome, 
Karla. Do you want to introduce her for our Members?
    Mrs. Read. Yes, I certainly will. Colleagues, this is Dr. 
Karla Peijs, who is the Vice Chair of the Delegation and a very 
active and innovative Vice Chair. I am sure she will want to 
say a few words, if she may, but, first, I will ask Carlos to 
respond to that very important last question. Please.
    Ms. Peijs. Hi, Ben.
    Chairman Gilman. Welcome, Karla.
    Mr. Westendorp. I totally share your concerns about Kosovo. 
First of all, it was expected. It is happening as kind of a 
revenge from the Albanians against the Serbs, and ethnic 
cleansing a reality which is very worrisome, we still believe--
I still believe at least--that we should work for ethnic 
integration in Kosovo; otherwise, independence would be a very 
bad solution for the whole region.
    I think the problems in Kosovo, also as expected, is that 
there are too many chiefs and very few Indians. First of all, 
there is the many organizations--the IMF, The World Bank, the 
European Union, the AID, the OEC, et cetera--and they had a lot 
of difficulties to coordinate all these organizations.
    What he needs is full power and full support. I agree with 
you that the European Union should give him much more support.
    When I was in Bosnia, I worked there for 2 years having the 
full support of the United States on the one hand, and the 
European Union on the other hand. We had a lot of problems, for 
instance, the problem of the police, but we managed to have all 
the policemen we needed. We also had the convention which was 
the mobile troops in order to prevent riots.
    Now I understand that there are few policemen, around 
2,000, and they will need many more of them. I totally agree 
with you, and we are pressing ahead from the European 
Parliament in order to provide Kouchner with the police and 
with the assistance, financial assistance, that he needs.
    Mrs. Read. Thank you very much, Carlos.
    Ben, can I invite Karla Peijs to say a few words to your 
colleagues?
    Chairman Gilman. Yes, please. Welcome, Karla.
    Ms. Peijs. Ben, in the last meeting that we had in 
Brussels, there were a few things that we wanted your attention 
for the early warning system. We made progress on our side on a 
few issues, one of these is the Podrie Kosmetica Products--I 
should speak English, of course--and there is a decision taken 
by the Commission to send a proposal for a directive to the 
Parliament and the Council, and that is really an important 
thing in the relationship between you and us. This is an early 
warning that is coming up that the Parliament will think about 
it and get it not only an opinion but decision together with 
the Council, and maybe in the next meeting that we have 
together we should talk about that.
    The second thing is the hushkit that the Parliament 
together with the European Commission agreed about the ruling, 
and that the ruling really should go into effect on the 4th of 
May of this year.
    So, I think that the sense of the Council of all the 
members of the member states, that you can go on in the 
negotiations with United States, the way we did until now. So, 
maybe also this is a thing that we have to get on the agenda 
all over again in our June meeting.
    Mrs. Read. Thank you, Karla.
    Carlos has to leave us now. Carlos has another meeting to 
go to, if he could just say goodbye to you.
    Chairman Gilman. Carlos, thank you for being there. Please, 
let us try to find some solutions to our trade problems along 
the way, they have been a real thorn in our sides, and whatever 
we can do by working together, Carlos.
    Mr. Westendorp. Yes, absolutely. I am entirely at your 
disposal. Thank you very much for this opportunity. I hope to 
see you soon.
    Chairman Gilman. Thank you for taking part in our first 
opportunity to use our new----
    Mr. Sherman. Mr. Chairman.
    Chairman Gilman. Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. I will apologize in 
advance if some of my comments are a bit intemperate, but my 
colleague from California, Dana Rohrbacher, is not here, and I 
feel I must make up for his absence.
    We heard from one of your colleagues about the Iran 
situation, and I do know--and I want to thank European 
Parliamentarians and governments for making oral statements 
both publicly and privately--but what concerns me is the 
pressure on The World Bank continues, and we do face a 
situation where I am being asked that--this is the pressure on 
The World Bank to make loans to Iran at a time when Iran is 
developing nuclear weapons and at a time when Iran is going 
forward with the trial of the 13 Jews in Shiraz--so I am being 
asked to vote to continue to spend money and, more importantly, 
to risk our soldiers and to tie them up on a different 
continent in Kosovo. We have a major vote on that tomorrow.
    At the same time, Europe is undermining efforts for peace 
in the greater Middle Eastern region by doing business as usual 
and now providing investments and loans, and even pressuring 
international organizations to make loans to Iran, and I think 
it would be very difficult for many of us to continue to 
support the Kosovo effort in a spirit of cooperation with 
Europe under those circumstances.
    I would be gratified to learn that at least some of the 
governments you represent are not going to continue pressing 
The World Bank to make loans to Iran at this time. I don't know 
if any of you are prepared to assuage my concerns.
    Chairman Gilman. Don't jump all in at once.
    Mrs. Read. I am jumping in. May I try and make a response 
to that. The first thing I would like to say is that I think it 
would be very useful for the Delegation from the Parliament, 
and I hope the Delegation from Congress, if we let you have in 
advance of our visit in June, a copy of the European 
Parliament's annual report on human rights. I think then you 
and your colleagues will be able to see the scale of the work 
that we do in this area and the response that we think is a 
considered response that we make to issues that come before us.
    But I would want to say that as well as being critical, we 
do, of course, have to be self-critical of allegations of 
breaches of human rights within the European Union, I think 
particularly of Northern Ireland, and perhaps I ought to say 
here that when your delegation came to Brussels in January, one 
of the things that we did want to acknowledge was the role that 
the United States and Senator Mitchell in particular had played 
in the Northern Ireland peace process, but my own country, 
Great Britain, has been criticized and, indeed, found guilty of 
breaches of human rights in Northern Ireland.
    I say that to put into context our own criticism of many 
other countries and, indeed, if I can be blunt, of the United 
States of America and the existence of the death penalty in the 
United States. It is a little joke we sometimes make in the 
European Union that should--and I know it is an unlikely 
hypothetical case--the United States ever want to join the 
European Union, you would not be eligible, you would not be 
eligible because of the existence of the death penalty. I don't 
make that as a serious point, although there are concerns, 
serious concerns, and I know concerns among many of you. But 
back to your point, sir, about the linking of the loans, 
financial assistance, and the very serious breach of human 
rights that you outlined.
    Mr. Westendorp has made very clear, I think, his own 
position, and indeed that of the Parliament and of the Member 
States, over this particular very, very serious issue.
    I want, Ben, to make a general point because I am not in a 
position--nor are any of us--I emphasize that this is an 
informal exchange of views, it is not the Transatlantic 
Legislators' Dialogue, it is a very informal first step--but if 
we were to be too strenuous in always linking allegations or 
even proven breaches of human rights with economic sanctions or 
restrictions, I think we would get ourselves into some very, 
very severe difficulties.
    I am not quite sure whether I was entirely following your 
argument that this particular case in Iran, which is very, very 
serious, of course, and is a major concern, and the aid that is 
coming through to Bosnia and the Balkans should be linked in 
any way. I don't think that is what you were saying, and I am 
sure it is not what is meant, but I would ask----
    Mr. Sherman. That is exactly what I am saying. That is 
exactly what I meant. Perhaps I should explain. I mean, you 
offer to bring me a report on human rights in June. By then the 
trials will be over. But, frankly, resolutions--and resolutions 
are important, and we hope to have a resolution on the Floor of 
the House tomorrow about this--but resolutions to dictatorial 
regimes are simply comic relief, and for Europe to come to the 
United States when it has trouble in the Balkans--you did not 
come and ask for resolutions, you did not come and ask for 
Parliamentarians to give speeches. You came and asked for 
troops and money, and are continuing to put us in a position 
where we have to station armies in Asia and Europe 
simultaneously, in Korea and in Kosovo, and for Europe at the 
same time to be the moving force behind aiding Iran creates a 
problem for the United States in a third region of the world.
    I gather from what you say that because of problems in 
Northern Ireland or because you disagree with the American 
death penalty, that it is fully acceptable for European 
governments to pressure The World Bank into making loans to a 
regime while the trials are about to begin. I know you disagree 
with our death penalty legislation, but it seems like a very 
odd policy.
    I do also, since this whole building is--I want to mention 
a little bit about the China situation because I know my 
remarks are less temperate than those you hear from our State 
Department, and what I am about to say also differs from our 
State Department. Ninety percent, 99 percent of our foreign 
policy establishment favors this deal with China, 70 percent of 
our people are against it. As Parliamentarians, you are closer 
to the people than is your own Foreign Ministry, and I hope 
that you would guide your governments toward a recognition that 
it is not enough just to shake hands with our diplomats. 
European policies need to be more consistent, or ought to at 
least take into account views of the American people that may 
take half a decade to bubble up to the point where they 
influence policy. For example, the Governor of Texas, Mr. 
George W. Bush, in dealing with Kosovo, has said, ``Look, we 
are the peacemakers, somebody else ought to be the 
peacekeepers''. Now, I am not sure he will be serious about 
that should he become President, and I don't support him for 
President, but the idea that the United States would have to 
maintain for a generation or longer peacekeeping forces in the 
Balkans while at the same time having the fighting 
responsibility in the Gulf, in Korea, and in many other places 
around the world is apparently acceptable to our State 
Department, it won't be acceptable to our people.
    So, yes, indeed, there is a concern I have for a European 
dedication to human rights and the common values that seems to 
stop just as soon as business interests are involved, or the 
expenditure of governmental funds are involved. I would 
certainly like to see a Europe that expects us to join hands 
with Europe on Kosovo, to join hands with us on dealing with 
Iran.
    Chairman Gilman. Thank you, Mr. Sherman. I would like to 
recognize, Mel, a new Member who has joined us on our panel 
today, Dr. John Cooksey, a Republican from Louisiana, who 
serves also not only on our International Relations Committee, 
but also on our Agriculture and Transportation Committees. Dr. 
Cooksey.
    Mr. Cooksey. Thank you, Mr. Chairman, it is great to be 
here, and be here in this apparently landmark, first-time 
virtual reality transatlantic communication. I love Strasbourg, 
it is a great city, and love Europe.
    I would like to touch on a couple of areas that are related 
to my Committees. I just left an Agriculture Committee meeting, 
and last year when I was over there, I actually was on my way 
back from a trip visiting military installations, we stopped in 
Ireland one night and we refueled and left the next morning, 
but I read the Sunday morning paper, and there was a lot of 
information about the genetically modified organisms. As a 
physician who is trained in the scientific method, I felt like 
this was something that came out of the National Inquirer. You 
may not be familiar with the national Inquirer, but I am sure 
you have some comparable publications over there, but I feel 
like there is a lot of misinformation there, and I feel like a 
lot of times it is important for those of us that are in 
leadership government positions to bring the truth out and to 
tell the people that the world really is not flat, and tell the 
people that we are in global markets and that we are moving 
into some exciting times in this 21st century.
    Another area that I would like to talk about is basically 
about the hushkits. My wife and I were over for a wedding near 
Toulouse last year and I visited the Air Bus factory. I am a 
pilot, still fly some, through probably no one is safe when I 
am flying, but I do fly occasionally still, in a small plane, a 
Baron, but you have a wonderful airplane; the Airbus is a great 
airplane that can compete with anything that is built anywhere 
in the world. I don't feel that it is necessary for the EU to 
hide behind this ``hushkit'' problem. Point in case, Monday 
night I flew back from my home district, and flew from 
Louisiana to Memphis. There was a problem with the approach 
radar here at Reagan National Airport, so just before we took 
off at 8:20, the pilot said, ``We won't be able to leave 
because the approach radar is off'', but he said, ``it doesn't 
matter, we will be able to land at Reagan National Airport even 
if it is 2 o'clock in the morning because we are flying an Air 
Bus and it meets all of the sound requirements''. Had we been 
on another plane that did not, we would not have been able to 
do it.
    But, quite frankly, as a pilot and as a person who spends a 
lot of time on airlines, I feel that there is not total 
integrity in the position on these hushkits. We really need to 
all be honest with each other--and I know you have your groups 
that you have to listen to--but take my words for it--the 
Airbus is a good airplane, it will compete head-up with 
anything that Boeing or McDonnell Douglas or anyone else 
builds, and you don't need to hide behind that.
    So, I threw out some points for discussion, and--I am from 
Louisiana, and I used to teach surgery courses. I have taught 
some surgery courses in Great Britain and Australia and Europe, 
and I always would tell everybody, ``We think that all of you 
talk funny'', but, anyway, if you have trouble understanding my 
southern dialect, some of these people think we talk funny--so, 
anyway, I am sorry for getting your name wrong, but I am ready 
now.
    Ms. Peijs. I have no trouble with understanding you. I have 
every now and then more trouble with people from London than 
with you. So there is no problem. But maybe I may explain you 
one thing, and it is we don't have the hushkits as a protection 
measure for Airbus. You have to keep in mind that Europe, we 
have 100 million people more than the United States, but the 
area where they are living is much denser. It is much smaller 
than the United States. So, our people are living almost on the 
airport, so that is really a big difference with United States. 
We can't explain to the people, we can't sell to the people 
that we spent millions and millions of dollars to keep the 
noise out of the houses and so on, and that we don't do 
anything on the plane who are bringing all this noise, and that 
is the continuing misunderstanding between United States and 
Europe because, really, our people are much closer to the 
airport than in the United States, and that is really a point 
of concern for us, and our people don't want it anymore. So, we 
have to do something, and we hope sincerely that we can do it 
together with the United States, and there is also our 
Commissioner, Madame Palacio, she made an opening to go further 
in the negotiations for the United States, and we hope 
sincerely that you take this opening and that we find a 
solution together.
    Mr. Cooksey. That is great.
    Chairman Gilman. If I might interrupt just a moment--please 
forgive me, Mel and Karla--I am being called to testify at 
another Committee, and I will be back shortly. I hope you are 
still here when I come back. If not, allow me----
    Mrs. Read. I am sorry to interrupt you, I was going to say 
to you that we must close now. We have to go back to meetings 
in the Parliament, but I very much hope--I think this has been 
extraordinarily successful. I think we need to build on this 
when we have our two formal video-conference links in May, and 
I hope in other less formal links. I am really sorry that we, 
too, do have to go. There are several unresolved questions, 
Ben, to do with GMO's and particularly your colleague from 
California, I am sure that we are going to have some--how can I 
put it--very lively and fine exchanges of views, and we very 
much look forward to that. I have forgotten your colleague's 
name, forgive me, but he clearly has got very, very strong----
    Chairman Gilman. Dr. Cooksey, and Brad Sherman from 
California, and Doug Bereuter.
    Mrs. Read [continuing]. Brad Sherman from California. We 
have some equally robust and lively Parliamentarians, and I 
will make sure that many of those are here for future 
discussions. But can we close from this end, Ben?
    Chairman Gilman. Yes, by all means. Mel and Karla--and 
mention to Carlos and Elmar--how much we appreciate on such 
short notice you have made yourselves available. It is a good 
start, let us build on it. Hopefully we will be able to have 
better mutual recognition of the problems that exist. God 
bless, and happy Easter to both of you.
    Mrs. Read. A happy Easter to you, too, and to all of yours. 
Goodbye.
    Ms. Peijs. Goodbye.
    Chairman Gilman. Thank you. Goodbye.
    [Whereupon, at 11:15 a.m., the Committee was adjourned.]


                                <greek-d>

</pre></body></html>
